m

" lH
r-^7

CD

• &

NO,

SUPREME

—“*7

filed
AUG I a 2020
^Z^MSFJ^JSLdRsK

COURT OF THE UNITED STATES

KAREEM K. KIRK SR;
APPLICANT/ PETITIONER
VS
JANET RICHARDSON; ET, AL.
MARIA 0. OSIMEN

RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI
[SUPREME COURT OF FLORIDA LAST RULE ON MERITS OF THIS CASE]
PETITION

FOR WRIT OF CERTIORARI

KAREEM K' KIRK SR
13119 AARANS POND DR, APT 201,TAMPA FLA 33612 [813 5703065]
QUESTIONS PRESENTED
[1] HOW? COULD JUDGE ELIZABETH G, RICE OF THE 13th JUDICAL CIRCUIT IN AND FOR HILLSBOROUGH
COUNTY, FLORIDA CIVIL DIVISION,FAIL TO COMPLY WITH THE WRITTEN LAW, THE PETITIONERS RIGHT
TO A JURY TRIAL AS GUARANTEED BY ARTICLE 1, SECTION 22, OF THE FLORIDA CONSITITUTION;
[2] HOW ? COULD PETITIONERS SEVENTH AMENDMENT RIGHTS TO THE UNITED STATES CONSTITUTION
BE DENIED WHEN IT ENSURES THE PETITIONERS RIGHT TO TRIAL BY JURY IN CIVIL CASES INVOLVING
CLAIMS VALUED MORE THAN 20 DOLLARS.AND PETITIONER NOR DEFENDANTS EXPRESSLY WAVIED
THERE RIGHTS TO A TRIAL BY JURY AND THE RATIFICATION OF THE FOURTEENTH AMENDMENT TO DUE
PROCESS

RECEIVED

[3 HOW7COULD JUDGE ELIZABETH G RICE HAVE FAILED TO BE FAITHFUL TO THE RULE I

I

fWR 2020

MAINTAIN PROFESSIONAL COMPETENCE IN IT, AND PERFORM JUDICIAL DUTIES WITHOUT BIAS, OR
PREJUDICE

[4]HOW? COULD THE SECOND DISTRICT COURT OF APPEAL JUST SIMPLY STATE [BY ORDER OF THE
COURT APPELLANTS MOTION FOR REHEARING IS DENIED] THIS IS AN UNELABORATED DECISION.
[5] HOW? COULD THE SECOND DISTRICT COURT OF APPEALS DENY THE PETITIONERS MOTION FOR
DISCOVERY OF AN UNELABORATED DECISION OF A CASE RULING
[6]HOW? IS IT THAT ONE OF THE DECISIONS ON REVIEW IS A DECISION OF A DISTRICT COURT OF APPEAL
THAT EXPRESSLY CONSTRUES PROVISIONS OF THE STATE AND FEDERAL CONSTITUTIONS AND DIRECTLY
CONFLICTS WITH DECISIONS OF OTHER DISTRICT COURTS OF APPEAL ON THE SAME QUESTIONS OF
LAW, AND THIS CASE HAS NOT BEEN RETURN TO THE ACTIVE DOCKET, REQUESTING THE COURT TO
PROCEED IN SETTING A DATE FOR

AN INITIAL PLANNING AND SCHEDULING

FOR TRIAL

LIST OF ALL PARTIES
ALL PARTIES APPEAR IN THE CAPTION ON THE COVER PAGE
RELATED CASES
KIRK VS RICHARDSON ET. AL,
JUDGEMENT ENTERED

CASE NO, 12-2888

HILLSBOROUGH COUNTY, TAMPA FLA,

12/22/2018

KIRK VS RICHARDSON ET, AL, CASE NO, 2D190089 SECOND DISTRICT COURT OF APPEALS
JUDGEMENT ENTERED 3/13/2020
KIRK VS RICHARDSON ET, AL, CASE NO; SC-20-407 SUPREME COURT OF FLORIDA,
JUDGEMENT ENTERED 3/23/2020
TABLE OF CONTENTS
OPINIONS BELOWJURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRITCONCLUSION

INVOLVED

Lo
L> -7-S
%

INDEX

TO

APPENDICES

APPENDIX - A- DECISION OF STATE COURT OF APPEAL DENYING DISCOVERY OF UNELABORATED
DECISION AND REHEARING OF CASE RULING DATED APRIL 07-2020.
APPENDIX - B-

DECISION OF STATE COURT OF APPEAL DENYING REHEARING DATED MARCH 13,

2020.
•APPFNDIX—C—DECISION OF COIIRT OP APPFAI NOT PIMAI IIMTII TIME cvp[ppc jq |-|LC QCIICiAcf*'tfTH"

MOTION ANB; IT TILED DETERMtNEB.

£. ic ic. Stl an

APPENDIX—D-DECISION OF STATE SUPREME COURT DENYING REVIEW MARCH 23,2020.

TABLE OF AUTHORITIES
[A]

-[i] N MAGNA CART- TRIAL

BY JURY [see] GOMEZ-OYARZUN

VS

CITED

CARRIBEAN CITY

BUILDERS INC; CASE NO; 14-1101,2014, WL,285027 [DPR JUNE2014]
[B]~ FLORIDA,S ASS,N FOR RETARDED CITIZENS INC. BUSH, 246, F 3rd 1296 [11th CIR 2001]
[C]—38 C.F.R.SUBSECTION 14,800 et, Seq. IMPLEMETING UNITED STATES ex, REL [TOUHY VS
RAGEN] 340 U.S. 462 [1951]

•

[D] -38 C.F.R. SUBSECTION 14,807 [b]
[E] MEHEDI VS 2057161 ONTARIO INC, ONCH 670.
[F] BJY VS MA, 617,S0.2d 1061 [1963]
[G] ARTICLE 1, SECTION 22, FLORIDA CONSTITUTION.
[H] ARTICLE 1, SUBSECTION 6, FLA. CONST. [1838]
[I] HUNT VS CITY OF JACKSONVILLE, 34 FLA,504, 16 So. 398 [1894]
[J] HATHORNE VS PANAMA PARK CO, 44 FLA. 194,196, 32 So. 813 [1902]
;

[K] KLUGER VS WHITE, 281 So.2d 1,4 [FLA.1973]
[L] FLA.STAT. SUBSECTION 2.01 F.S.A
[M] CHEVROLET VAN, 493 So. 2d 433 [FLA.1986]
[N]

SMITH VS BAILEN, 258 N. W.

2d 118 [MINN.1977]

J3

[0] SYNDER VS MASSACHUSETTS, 291 U.S.97,116-117 [1934];
[P] BUCHALTER VS NEW YORK 319 U.S. 427=429 [1943];
[Q] LISENBA VS CALIFORNIA 314 U.S. 219-236

[1941];

STATUES AND RULES
[A]

RIGHT TO TRIAL BY JURY AS DECLARED BY THE SEVENTH AMENDMENT OR AS GIVEN BY

STATUTE OF THE UNITED STATES SHALL BE PRESERVED INVIOLATE.
[B] DUE PROCESS UNDER THE FOURTEENTH AMENDMENT, PROCEDURAL DUE PROCESS
BASED ON FUNDAMENTAL FAIRNESS,

WHICH LEGAL PROCEDURES ARE TO BE FOLLOWED IN STATE

PROCEEDING.
[C]

FLORIDA STATUES 1.430 [d] JURY WAIVER,

A PARTY WHO FAILS TO SERVE A DEMAND

AS REQUIRED BY THIS RULE WAIVES TRIAL BY JURY, IF WAIVED, A JURY TRIAL MAY NOT BE
[D] FLORIDA RULE OF JUDICIAL ADMINISTRATION 2.545 [b] TIME STANDARDS FOR NON= JURY
TRIAL

HAD EXCEED DENYING DUE PROCESS.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

PETITIONER
BELOW.

RESPECTFULLY PRAYS THAT A WRIT OF CERTIORARI ISSUE TO REVIEW THE JUDGMENT

OPINIONS
BELOW
[

]

FOR CASES FROM FEDERAL COURTS;

THE OPINIONS OF THE UNITED STATES COURT OF APPEALS APPEARS AT APPENDIX [D] TO
THE PETITION AND IS [UNPUBLISHED]
THE OPINIONS OF THE UNITED STATES DISTRICT COURT APPEARS AT APPENDIX [B] TO THE PETITION
AND IS [UNPUBLISHED]
[

]

FOR CASES FROM STATE COURTS;

THE OPINION OF THE HIGHEST STATE COURT TO REVIEW THE MERITS APPEARS AT APPENDIX [D] TO
THE PETITION AND IS [UNPLUBLISHED]

t/

[A]

KIRK VS RICHARDSON—241 So 3d 102 [2017J-20171122272

WITHOUT PUBLISHED OPINION;
[B]

APPENDIX [B] DECISION

-OPINION FILED NOVEMBER 22,2017;

KIRK VS RICHARDSON CASE NO; 2D19-89

APPENDIX [C]

OPINION FILED FEBRUARY

5,2020.

JURISDICTION
[

] FOR CASES FROM FEDERAL COURTS

THE DATE ON WHICH THE UNITED STATES COURT OF APPEALS

DECIDED MY CASE WAS, MARCH

13th 2020.
[ ] A TIMELY PETITION FOR REHEARING WAS DENIED BY THE UNITED STATES COURT OF APPEALS ON THE
FOLLOWING DATE APRIL 7th 2020 AND A COPY OF THE ORDER DENYING REHEARING APPEARS AT
APPENDIX [A].
THE JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C. SUBSECTION 1254 [1],

[ ] FOR CASES FROM STATE COURTS;
THE DATE ON WHICH THE HIGHEST STATE COURT DECIDED MY CASE WAS MARCH 13th 2020.A COPY
APPEARS AT APPENDIX [D].
[ ] A TIMELY PETITION FOR REHEARING WAS THEREAFTER DENIED ON THE FOLLOWING DATE APRIL 7th
2020. AND A COPY OF THE ORDER DENYING REHEARING APPEARS AT APPENDIX [A]
THE JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C. SUBSECTION 1257 [A]

CONSTITUTIONAL AND STATUTORY PROVISIONS IVOLVED

[A]

THE SEVENTH AMENDMENT

[AMENDMENT VII]

TO THE UNITED STATES CONSTITUTION

IS PART OF THE BILL OF RIGHTS. THIS AMENDMENT CODIFIES

THE RIGHT TO A JURY TRIAL IN CERTAIN

CIVIL CASES AND JNHIBITS [COURTS] FROM OVERTURNING A JURYS FINDING OF FACTS.

[SEE]

APPENDIX B. DATED MARCH 13,2020
[B]

THE FOURTEENTH AMENDMENT DUE PROCESS CLAUSE,THE SUPREME COURT OF THE UNITED

STATES INTERPRETS THE CLAUSES BROADLY THAT THESE CLAUSES PROVIDE PROTECTION;

IN[PROCEDURAL DUE PROCESS IN CIVIL AND CRIMINAL PROCEEDINGS]

[SEE] APPENDIX [A] DATED

APRIL 7th 2020, and MARCH 13th,2020.

STATEMENT OF THE CASE

ON 2/23/2012 PETITIONER FILES CIVIL COMPLAINT AGANST RESPONDENTS RICHARDSON, AND
OSIMEN, et,al. AND DEMANDED FOR AND PRAY FOR, A JURY TRIAL
ON 2/23/2012 CASE SUMMARY CASE FLAGS STATES [JURY CASE]
ON 5/19/2015
JURY TRIAL.

PETITIONER

FILES AMENDED COMPLAINT REQUESTING FOR, AND PRAYING

AT NO TIME HAS THE PETITIONER

FOR, A

NOR, RESPONDENTS, FILE A 1.430 [d] F.S. JURY TRIAL WAVIER.

ON 10/2016, JUDGE ELIZABETH G. RICE

ORDERED A NON-JURY TRIAL AFTER THE TIME STANDARDS

FOR NON-JURY TRIALS HAD EXCEED, FLORIDA RULES OF JUDICAL ADMINISTRATION 2.545 [b] ALSO HAS
IMPOSED TIME STANDARDS WITHIN WHICH MOST CASES SHOULD BE COMPLETED, JUDGE E. RICE FAILS
TO COMPLY WITH THE WRITTEN LAW. DENYING PETITIONER HIS DUE PROCESS.
JUDGE E RICE HAS SHOWN A PATTERN OF IMPROPER ACTIVITY THAT HAS AFFECTED PETITIONERS DUE
PROCESS.
JUDGE E. RICE HAS FAIL TO COMPLY WITH THE RULES OF LAW, DENYING PETITIONERS RIGHT TO A JURY
TRIAL AS GUARNTEED BY ARTICLE 1, SECTION 22 OF THE FLORIDA CONSTITUTION.
PETITIONERS SEVENTH AMENDMENT TO THE UNITED STATES CONSTITUTION ENSURES THE PETITIONER
RIGHT TO A TRIAL BY JURY IN A CIVIL LAWSUIT INVOLING CLAMS VALUED MORE THAN 20 DOLLARS.
THERE HAS CLEARLY BEEN A MISTAKEN APPREHENSION OF THE LAW.
CASE FAVORS THE GRANTING OF LEAVE TO REOPEN THIS CASE, WHERE

AND THE CLEAR JUSTICE OF THIS
AN INVESTIGATION CAN BE

OPEN WHERE THE CIVIL LIBERTIES ARE GUARANTEED UNDER THE UNITED STATES CONSTITUTION.
[A] SUBPOENA/ CONTEMPT, IS REFUSAL TO RESPOND TO A SUBPOENA, TO TESTIFY TO FULFILL THE
LEGAL OBLIGATIONS, OR TO PROVIDE CERTAIN INFORMATION CAN CONSTITUTE
COURT, [YET]

THERE WERE NO

CONTEMPT OF

SANCTIONS FILE BY JUDGE E RICE, NO CIVIL CONTEMPT WAS FILED

DESPITE THE SUMMONS THAT IS REQURING ATTENDANCE TO BE, TO PERSONALLY APPEAR,
[B] MARION JONES -RECIEVED SUBPOENA, SIGN SUBPOENA, FAIL TO ASPPEAR, NO CONTEMPT
[C] TAMPA POLICE OFFICER DAVID WALKER, RECIEVE SUBPOENA, SIGN SUBPOENA, FAIL TO APPEAR TO
GIVE TESTIMONY IN BEHALF OF PETITIONER,AGAINST RESPONDENTS, NO CONTEMPT WAS FILE BY
JUDGE E RICE

b

[D] BEN WILLIAMS SUBPOENA, RECIEVE SUBPOENA, SIGN SUBPOENA, FAIL TO APPEAR TO TESTIMONY
ON BEHALF OF PETITIONER AGAINST RESPONDENTS, NO COMTEMPT FILE BY JUDGE E RICE AT ALL TIMES
THE PETITIONERS DUE PROCESS IS BEING DENIED BY JUDGE E RICE, THIS IS AN ATTACK ON THE RULE OF
LAW.
PETITIONER ALLEGES AT ALL TIMES THAT [HE] WAS EMPLOYED" BY RESPONDENT RICHARDSON,
RESPONDENT RICHARDSON DISPUTED THIS,

[YET] RESPONDENT RICHARDSON CO-DEFENDENT MARIA

O OSIMEN GAVE A SWORN STATEMENT TO TAMPA POLICE OFFICER DAVID WALKER THAT BOTH
RICHARDSON AND THE PETITIONER WORK FOR OSIMEN, THE FACTS, EVIDENCE, AND TESTIMONY AT
THE BENCH TRIAL REVEALED

THAT THE RESPONDENT RICHARDSON EMPLOYED THE PETITIONER AND

MR SCOTT.RESPONDENT ALSO EMPLOYED PETITIONER WITNESS

BEN WILLIAMS WHOM JUDGE E RICE

FAIL TO HOLD IN CONTEMPT FOR FAILURE TO APPEAR AT THE BENCH TRIAL, DATED DECEMBER 5th AND
DECEMBER 12th 2016.
JUDGE RICE RULES IN RESPONDENTS FAVOR DUE TO THE FACT THAT PETITIONERS FEDERAL MEDICAL
DOCTORS WERE UNABLE TO APPEAR AT THE BENCH TRIAL BECAUSE THE PETITIONER IS A UNITED
STATES MARINE CORP VIETNAM VETERAN WHO WAS TREATED AT JAMES A HALEY VETERANS HOSPITAL
FOR THE INJURIES HE RECIEVED BY RESPONDENT RICHARDSON NEGLIGENCE FAILING TO TAKE CARE TO
AVOID CAUSING INJURY OR LOSS TO ANOTHER PERSON,
STATEMENT FROM VA, ATTORNEY MR JUSTIN ZIMMER WASHINGTON D.C. COURT OF APPEAL;S FOR
VETERANS, STATES RE- INFORMATION ON REQUESTING TESTIMONY FROM VA PROVIDERS GCL 35383
DEAR MR KIRK, AS AN ATTORNEY

IN VA,s OFFICE OF CHIEF COUNSEL. I

DETERMINE WHETHER VA PERSONEL MAY BE INTERVIED CONTACTED

AM AUTHORIZED " TO
OR USED AS WITNESSES,

INCLUDING USED AS EXPERT WITNESSESS BASED ON FEDERAL POLICY TOUHY VS RAGEN, 340 U.S. 462
[1951]
RE; MEDICAL CARE RECOVERY ACT CASE, KAREEM K KIRK SR, SUBROGATION CLAIM; 37,223,75
DOLLARS,D/A SEPTEMBER 1st 2011 RESPONABLE PARTIES

RESPONDENT JANET RICHARDSON et,al

THIS IS THE REASON PETITIONER FEDERAL MEDICAL DOCTORS WERE UNABLE TO APPEAR AT THE BENCH
TRIAL,
ON 7/22/2018 JUDGE E RICE MAILS ALL PARTIES A COURT NOTICE STATING [ADMINISTRATIVELY
CLOSING CASE] AND ANY PARTY MAY FILE A MOTION TO REOPEN OR REACTIVE SAID CASE,AND THAT
[HER] JUDGE RICE COURT [RESERVES JURISDICTION]
ON 11/30/2018 PETITIONER FILES MOTION TO REOPEN, AND REACTIVATE THIS CASE,
ON 12/13/2018

JUDGE E RICE MAILS ANOTHER NOTICE TO ALL PARTIES DENYING PETITIONERS

MOTION, [NOW STATING]

[HER] JUDGE E RICE

COURT LACKS JURISDICTION

CONTRAY TO THE

ORDER DATED 7/22/2018
IT IS RESONABLELY CLEAR THAT THE NEW EVIDENCE, AND NEW WITNESSES TESTIMONY,WITNESSES
THAT WAS SUBPOENA AND NEVER APPEARED NOR NEVER HELD IN CONTEMPT BY JUDGE E RICE WOULD

HAVE PRODUCED AND OPPOSITE VERVICT ALONG WITH PETITIONERS DEMAND FOR JURY TRIAL,THAT
THE PETITIONER IS CONSTITUTIONLLY ENTITLE TO HAVE UNDER THE UNITED STATES BILL OF RIGHTS;

JUDGE E RICE HAS CLEARLY IMPEDED THE DUE ADMINISTRATION OF JUSTICE, AND THE SUPREME
COURT OF FLORIDA STATES THAT THEY LACK JURISDICTION TO REVIEW AN UNELABORATED DECISION
FROM THE DISTRICT COURT OF APPEAL THAT IS ISSUE WITHOUT OPINION OR EXPLANATION,[SEE]
APPENDIX [D] DATED MARCH 23, 2020-.

REASONS FOR GRANTING THE PETITION
:=rr=:rr==:===;

[ A] JUDGE ELIZABETH G. RICE FAILED TO COMPLY WITH THE RUELS OF LAW, PETITIONER SEVENTH
AMENDMENT RIGHTS OF THE CONSTITIUTION, AND DISRESPECTING THE RUEL OF LAW, IN
OF THE UNITED STATES CONSTITUTION;
[ B]

[ ARTICLE 6,

THE RIGHT TO A FAIR TRIAL INCLUDES THE FOLLOWING FAIR TRIAL RIGHTS IN CIVIL, AND

CRIMINAL PROCEEDINGS, THE RIGHT TO BE HEARD BY A COMPETENT, AND INDEPENDENT, AND
IMPARTIAL TRIBUNAL THE RIGHT TO A PUBLIC HEARING. THE RIGHT TO BE HEARD WITHIN A
REASONABLE TIME.
[C] THE CLERK OF COURT ISSUED A [CLERK ORDER DEFAULT] AGAINST BOTH RESPONDENTS FOR
FAILURE TO COMPLY WITH A COURT ISSUE SUMMONS,ONCE AGAIN JUDGE E RICE FAIL TO COMPLY
WITH THE

RULE OF LAW, BY NOT COMPLYING WITH THE CLERKS ORDER,

[D] PETITIONER, DUE PROCESS OF LAW REQUIRES THAT THE PROCEEDING SHALL BE FAIR. JUDGE E RICE
DENIAL OF DUE PROCESS IS THE FAILURE TO OBSERVE THE FUNDAMENTAL FAIRNESS THATS ESSENTIAL
TO THE VERY CONCEPT OF JUISTICE.
[E] THE ABSENCE OF THAT FAIRNESS FATALLY EFFECTED THE PETITIONERS TRIAL [HAD] JUDGE E RICE
COMPLIED WITH THE RULE OF LAW AS THE CLERK OF COURT DID BY ISSUING THE DEFAULT, THERE
WOULD NOT HAVE BEEN A [TRIAL], [SEE] SNYDER VS MASSACHUSETTS 291 U.S.97,116-117 [1934]
BUCHALTER VS NEW YORK 319 U.S. 427-429(1943] LISENBA VS CALIFORNIA 314 U.S. 219-236 [1941]
[F] ONE OF THE DECISIONS ON REVIEW IS

A DECISION FROM THE DISTRICT COURT OF APPEAL THAT

EXPRESSLY CONSTRUES PROVISIONS OF THE STATE AND FEDERAL CONSTITUTIONS AND DIRECTLY
CONFLICTS WITH THAT OF OTHER DISTRICT COURTS APPEAL ON THE SAME QUESTIONS OF LAW, AND
GIVES THE PETITIONER AND THE SUPREME COURT OF FLORIDA AN UNELABORATED DECISION,
WITHOUT OPINION SO THAT THE COURTS WANT SEE WHAT THERE CONSTITUTIONAL OVERSITES ARE,

2

CONCLUSION

CLEARLY ERRONOUS, TO THIS TRIAL COURT, AS OPPOSED TO A JURY, OR AMINISTRATIVE AGENCY
MAKES A FINDING OF FACTS, SUCH AS A UNCONSTITUTIONAL BENCH TRIAL THAT THE FINDINGS WAS
NOT DISTRUBED, UNLESS THE APPELLATE COURT IS LEFT WITH A DEFINITE AND FIRM CONVICTION THAT
A CONSTITUTIONAL

MISTAKE

HAS BEEN COMMITTED BY THIS COURT OF THE 13th JUDICAL CIRCUIT

SUCH AS WITH JUDGE E RICE,HAS MADE IN HER BENCH ERROR, THAT ACT, OR OMISSION, HAS TO DUE
WITH THE DENYING THE WRITTEN LAW OF THE UNITED STATES CONSTITUTION. AT ALL TIMES THE
PETITIONER HAS DEMANDED,RESPECTFULLY REQUESTED FOR, AND PRAYED FOR A JURY
TRIAL,WHEREFORE PETITIONER PRAYS THAT THIS HONORABLE COURT GRANTS THE PETITION FOR WRIT
OF CERTIORARI,AS IT SHOULD BE GRANTED,

RESPECTFULLY SUBMITTED,
KAREEM K. KIRK SR,
AUGUST 18th 2020
NO
IN THE

SUPREME COURT OF THE UNITED STATES

KAREEM K KIRK SR,====PETITIONER
VS
JANET R RICHARDSON
AND
MARIA 0 OSIMEN et, al.

PROOF OF SERVICE
I KAREEM K KIRK SR, DO SWEAR OR DECLARE THAT ON THIS DATE AUGUST 18th 2020. AS REQUIRE BY

f

SUPREME COURT RULE 29, HEREBY DO CERTIFY THAT A TRUE AND CORRECT COPY OF THE FOREGOING
HAS BEEN FURNISHED TO THE FOLLOWING BY COMMERCIAL CARRIER FOR DELIVERY WITHIN THREE [3]
CALENDAR DAYS, PETITION FOR WRIT OF CERTIORARI

ON EACH PARTY TO THE ABOVE PROCEEDING,
JANET R RICHARDSON 1113 W. GRACE ST.

TAMPA FLA 33607,
MARIA O OSIMEN 7618 HORSE POND
ROAD ODESSA FLA

33556

I DECLARE UNDER [PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT.

EXECUTED ON AUGUST 18th 2020.

KAREEM K KIRK SR,

i/

%/)2/JLdUJ

